I

Appendix

12

>,

5/27/2021,3109267, Pagel of 14

19-2918-cr(L)
United States v. Aguirre

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order
filed on or after January 1, 2007, is permitted and is governed by Federal Rule of Appellate
Procedure 32.1 and this court's Local Rule 32.1.1. When citing a summary order in a
document filed with this court, a party must cite either the Federal Appendix or an
electronic database (with the notation "summary order"). A party citing a summary order
must serve a copy of it on any party not represented by counsel.
At a stated term of the United States Court of Appeals for the Second Circuit,
r-held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 6th day of May, two thousand twenty-one.
PRESENT:

Robert A. Katzmann,
Barrington D. Parker,
Steven J. Menashi,
Circuit Judges.

United States of America,
Appellee,
v.

No. 19-2918-cr(L)
No. 19-3407-cr(CON)

Martha Aguirre, Juan Alfaro,
Defendants-Appellants,

MANDATE ISSUED ON 05/27/2021

:

Case 19-3407, Document 104, 05/27/2021,3109267, Page2 of 14

Jose Ruben Gil, Herman E. Aguirre, Sonia Hernandez,
Margaret Banuelos, Troy R. Gillon, Darryl J. Williams,
Trent Adair Hamilton, Michael Pau Mitchell, Demetrius
Yarborough, Maulana Lucas, Shirley Grigsby, Ralik
Hamilton, Joseph Thompson, Dion Cheatham, Rashawn
Crule,
Defendants.’

For Appellee:

Katherine A. Gregory, Assistant United
States Attorney, for James P. Kennedy, Jr.,
United States Attorney for the Western
District of New York, Buffalo, NY.

For Defendant-Appellant Aguirre:

Mehmet Kemal Okay, Batavia, NY.

For Defendant-Appellant Alfaro:

Scott M. Green, Rochester, NY.

Appeal from a judgment of the United States District Court for the Western
District of New York (Vilardo, J.).
Upon due consideration, it is hereby ORDERED, ADJUDGED, and
DECREED that the judgment of the district court is AFFIRMED.

The Clerk of Court is directed to amend the caption of the lead docket No. 19-2918-cr
as set forth above.
2

Case 19-3407, Document 104, 05/27/2021,3109267, Page3 of 14

Defendants-Appellants Martha Aguirre and Juan Alfaro were tried together
by a jury and convicted of conspiracy to possess with the intent to distribute
heroin, fentanyl, and cocaine, in violation of 21 U.S.C. § 841 and § 846, and of
money laundering conspiracy, in violation of 18 U.S.C. § 1956(h). The district court
(Vilardo, J.) sentenced Aguirre to an aggregate term of imprisonment of 150
months with five years of supervised release, and Alfaro to an aggregate term of
imprisonment of 120 months with five years of supervised release.
Before this court, Aguirre appeals her conviction on the grounds that the
government

presented

insufficient evidence

to

establish her knowing

participation in the conspiracies and that the government suborned perjury and
thereby violated her due process rights. Alfaro appeals his conviction on the
ground that the district court erred in denying his motion for a new trial pursuant
to Federal Rule of Criminal Procedure 33(a). We disagree and affirm. We assume
the parties' familiarity with the underlying facts, procedural history, and
arguments on appeal.
I
The defendants concede that there was a money laundering conspiracy and
that drug-trafficking proceeds passed through their bank accounts. Nevertheless,
3

Case 19-3407, Document 104, 05/27/2021,3109267, Page4 of 14

Aguirre argues that the government failed to meet its burden of proof to establish
that she knew that the deposits made into the bank accounts of Kamora
Investment Enterprises, Inc. ("Kamora") were proceeds of a narcotics conspiracy.
Sufficiency-of-the-evidence challenges are reviewed de novo, but "a
defendant challenging the sufficiency of the evidence bears a heavy burden, as the
standard of review is exceedingly deferential." United States v. Litvak, 808 F.3d 160,
169 (2d Cir. 2015). This court "must review the evidence in the light most favorable
to the Government, crediting every inference that could have been drawn in the
Government's favor, and deferring to the jury's assessment of witness credibility
and its assignment of the weight of the evidence." Id. at 170.
When witness testimony includes contradictions, we will defer to the jury's
determinations regarding the weight of the evidence and the credibility of the
i

witnesses, see United States v. Persico, 645 F.3d 85, 104-05 (2d Cir. 2011), because a
"jury is entitled to believe part and disbelieve part of the testimony of any given
witness" and "a witness who may have been inaccurate, contradictory and even
untruthful in some respects" may be "nonetheless entirely credible in the essentials
of his testimony," United States v. Flores, 945 F.3d 687, 710-11 (2d Cir. 2019). We will
uphold the judgments of conviction if "any rational trier of fact could have found
4

N

•

,

Case 19-3407, Document 104, 05/27/2021,3109267, Page5 of 14

the essential elements of the crime beyond a reasonable doubt." United States v.
Hardwick, 523 F.3d 94,100 (2d Cir. 2008).
Here, the trial judge properly instructed the jury:
In determining whether one or both of the defendants acted knowingly, you
may consider whether that defendant deliberately closed his or her eyes to
what otherwise would have been obvious to him or her. If you find beyond
a reasonable doubt that one or both of the defendants acted with a conscious
purpose to avoid learning the truth, for example, that certain money came
from unlawful activity, then this element may be satisfied. ... If you find
that a defendant was aware of a high probability of the truth, for example,
that certain money came from unlawful activity, and thatdhe defendant
acted with deliberate disregard of the facts, you may find that the defendant
acted knowingly.
App'x 2155-56.; This court has repeatedly held that a defendant's deliberate
ignorance or conscious avoidance of the true purposes of his unlawful-activities
may support a finding with respect to the defendant's knowledge of the objectives
of the conspiracy at issue. See, e.g., United States v. Reyes, 302 F.3d 48, 54-55 (2d Cir.
2002); United States v. Walker, 191 F.3d 326, 337 (2d Cir. 1999); United States v.
Eltayib, 88 F.3d 157,170 (2d Cir. 1996).
Here, Aguirre is the sister of one of the leaders of the drug trafficking and
money laundering operation, Herman Aguirre. She was the president of a
company, Kamora, that had more than eight million dollars in drug proceeds pass
*

5

S'

Case 19-3407, Document 104, 05/27/2021,3109267, Page6 of 14

through its accounts, and she was the sole corporate officer authorized to transfer
and withdraw funds. She “enjoyed a trust position within the conspiracy" that
would allow a juror to "infer h[er] knowledge of the conspiracy's goal of
distributing controlled substances." United States v. Anderson, 747 F.3d 51, 69 (2d
Cir. 2014); see also United States v. Huezo, 546 F.3d 174, 182 (2d Cir. 2008) ("Based
on the complexity and scale of the money laundering scheme, common sense and
experience would support an inference that the principals in the conspiracy would
not have trusted an outsider (with no knowledge of their criminal purpose) to
transport... laundered funds.").
The undisputed evidence at trial established that Kamora employed no
other officers or employees. Aguirre stated in an affidavit that she "had no
meetings, no calls, no customers." App'x 893. The invoices and currency
transaction reports from Aguirre's bank indicated that Kamora purportedly
(1) purchased more sea cucumbers than it sold, including to a purchaser that does
not exist; (2) made only $1,675,300 in sales revenue — significantly less than the
$8,359,550 deposited into Kamora's accounts; and (3) sold nearly 20,000 more units
of sea cucumbers than it had reportedly purchased, with the purchase price per
unit 50 cents more than the sale price, implying that Kamora sold its sea cucumbers
6

Case 19-3407, Document 104, 05/27/2021,3109267, Page7 of 14

at a loss. Because Aguirre could not otherwise account for the money deposited
into Kamora's account, the jury could infer that Aguirre operated Kamora as a
front for the conspiracy.
The jury also heard that Kamora's accounts were opened on June 13, 2014,
just three weeks after Aguirre transported drugs from California to New York over
Memorial Day weekend. Darryl Williams testified that Herman Aguirre gave him
the deposit information for Kamora's x4948 account. Aguirre purportedly never
asked where the money came from, despite the large sums involved. Additionally,
there was sufficient evidence to establish that Aguirre knowingly transported
narcotics during her Memorial Day weekend trip in 2014. Records from the vehicle
rental company and the Best Western Hotel—as well as Aguirre's plane ticket—
confirmed that she drove from California to Buffalo, and she promptly returned
the vehicle and flew back home after meeting with a known drug dealer.
From this and other evidence presented at trial, a reasonable juror could
infer that Aguirre either knew or "was aware of a high probability of the fact" that
the deposits into her accounts were proceeds of a narcotics conspiracy "and

7

Case 19-3407, Document 104, 05/27/2021,3109267, Page8 of 14

consciously avoided confirming that fact." United States v. Rodriguez, 983 F.2d 455,
458 (2d Cir. 1993).
II
Aguirre did not object to the district court's jury instructions concerning the
admission of Sonia Hernandez's testimony. We therefore review her due process
claim for plain error. See Fed. R. Crim. P. 52(b); see also Davis v. United States, 140 S.
Ct. 1060,1061 (2020) ("When a criminal defendant fails to raise an argument in the
district court, an appellate court ordinarily may review the issue only for plain
/

error."). Under this standard, we will vacate a conviction for erroneous jury
instructions only if the instruction includes (1) an error (2) that is plain, (3) affects
substantial rights, and (4) "seriously affectfs] the fairness, integrity, or public
reputation of judicial proceedings." United States v. Grote, 961 F.3d 105,115-16 (2d
Cir. 2020) (quoting Johnson v. United States, 520 U.S. 461, 467 (1997)); see also United
States v. Gore, 154 F.3d 34,43 (2d Cir. 1998) ("A 'plain' error is 'an error so egregious
and obvious as to make the trial judge and prosecutor derelict in permitting it,
despite the defendant's failure to object.'").
Aguirre argues that the government suborned perjury and committed
prosecutorial misconduct by allowing Hernandez to testify. Aguirre points to
8

I

>•

Case 19-3407, Document 104, 05/27/2021,3109267, Page9 of 14

Hernandez's record of repeated dishonesty as well as discrepancies between her
statements at trial and those contained in her guilty plea. Aguirre claims that
Hernandez committed perjury when she denied having affirmative knowledge
that her two cross-country trips—during Memorial Day weekend 2014 and in June
2014—were for the purpose of drug trafficking. Aguirre argues that this testimony
contradicts Hernandez's guilty plea to conspiracy with intent to distribute
narcotics and to launder money.
Among many examples, Hernandez testified that she suspected her actions
involved drugs but that she deliberately avoided asking questions because "the
less I knew of what was going on, ... [the] better for me." App'x 1468-69. She
testified that, during the Memorial Day weekend trip, Aguirre explained that they
could "hide the smell" of "[t]he drugs that were in the car" by opening bags of
^ chips^dhring their drive to Buffalo. App'x 1280. Hernandez was present during a
DEA raid—occurring prior to both trips—that uncovered drugs in Gil's
warehouse where she worked, and she believed the money she handled was drug
proceeds. App'x 1261, 1274, 1277, 1301-02, 1457, 1420 1471-72. Hernandez also
testified that the invoices she prepared for Alfaro and Aguirre were fake because

9

• j '»

Case 19-3407, Document 104, 05/27/2021, 3109267, PagelO of 14

"they didn't sell sea cucumbers. So the information on [the invoices] w[ere] made
up because their businesses] had nothing to do with sea cucumbers." App'x 1291.
Hernandez testified that she complied with Herman Aguirre's instructions
to exchange the initial rental car for an SUV during her June 2014 trip because an
SUV would have more "space when you take out the compartment in the back to
hide packages." App'x 1295. During her June 2014 trip, she witnessed Herman
Aguirre hide packages in the SUV and had "some sort of suspicion" about what
the packages contained, App'x 1431, but she did not confront Herman Aguirre
about the purposes of either trip or what she was transporting until after her arrest
in Nebraska.
This is no contradiction between Hernandez's guilty plea and her testimony.
Based on her testimony, a reasonable juror could infer that Hernandez "was aware
of a high probability of the fact" that the trips were in service of drug trafficking
and she "consciously avoided confirming that fact." Rodriguez, 983 F.2d at 458.
Hernandez's guilty plea to participating in the drug conspiracy is therefore
consistent with her testimony that she lacked specific knowledge about what she
was transporting because she deliberately avoided confirming her suspicions.

10

i

Case 19-3407, Document 104, 05/27/2021, 3109267, Page11 of 14

Moreover, the question of Hernandez's credibility was placed before the
jury. The district court correctly instructed the jury that it should carefully
scrutinize the credibility of a witness who proffered inconsistent testimony, lied
under oath in a previous proceeding, or otherwise demonstrated a history of
dishonest behavior. In pertinent part, the district court explained:
If you find that the witness made an earlier statement that conflicts with his
or her trial testimony, you may consider that fact in deciding how much of
the witness's trial testimony, if any, to believe. ... It is exclusively your duty
based upon all the evidence and your own good judgment to determine
whether the prior statement was inconsistent and if so how much if any
weight to be given to the inconsistent statement in determining whether to
believe all or part of the witness's testimony. You have heard evidence that
a witness who testified at this trial lied under oath at another proceeding.
The testimony of a witness who has lied under oath should be viewed
cautiously and weighed with great care. But it is up to you to decide how
much of that witness's testimony if any you wish to believe.
App'x 2189-90. Both Aguirre's and Alfaro's counsel cross-examined Hernandez at
length on the purported discrepancy between her explanation of what she knew
and the wording of her plea agreement. During closing arguments, Aguirre's
counsel repeatedly attacked Hernandez's credibility as a witness, highlighting her
purportedly false statements and calling her a "Hollywood actress" and "just the
biggest liar." App'x 2082,2081. Alfaro's counsel similarly questioned the probative
value of Hernandez's testimony. Under these circumstances, we defer "to the
11

* <•'

*

Case 19-3407, Document 104, 05/27/2021, 3109267, Page12 of 14

jury's assessment of witness credibility and its assignment of the weight of the
evidence." Litvak, 808 F.3d at 170.
Ill
Alfaro argues that the district court abused its discretion in denying his
motion for a new trial pursuant to Rule 33(a). A defendant bears a heavy burden
in seeking to reverse the denial of a Rule 33 motion; we will overturn such a denial
only in extraordinary circumstances. See United States v. Snype, 441 F.3d 119, 140
(2d Cir. 2006). The "ultimate test" in deciding whether to grant a Rule 33 motion
is "whether letting a guilty verdict stand would be a manifest injustice." United
States v. Canova, 4T2 F.3d 331, 349 (2d Cir. 2005). Absent extraordinary
circumstances, questions regarding the credibility or consistency of testimony
affect the weight of the evidence rather than its sufficiency. See Persico, 645 F.3d at
104; United States v. Gonzalez, 110 F.3d 936, 941 (2d Cir. 1997).
The district court did not abuse its discretion in denying Alfaro's Rule 33
motion because Alfaro failed to establish that the witnesses' testimony was
incredible. Hernandez's testimony neither amounted to perjury nor was it
otherwise incredible. Similarly, Alfaro could not point to any statements made by

12

if ,*.r %

Case 19-3407, Document 104, 05/27/2021, 3109267, Page13 of 14

Gil that were incredible. Instead, Alfaro bases his claim on Gil's and Hernandez's
history of repeated dishonesty.
Such a history, however, affects only the weight of their testimony. "[W]here
the resolution of a Rule 33 motion depends on assessment of the credibility of the
witnesses, it is proper for the court to refrain from setting aside the verdict and
granting a new trial." United States v. McCourty, 562 F.3d 458, 476 (2d Cir. 2009)
(internal quotation marks and alteration omitted). The credibility of both
witnesses was probed extensively during cross-examination and the district court
correctly instructed the jury to evaluate the value of the testimony with caution
and to assess the totality of the evidence. This court has previously held that a
district court does not abuse its discretion by denying a Rule 33 motion when the
jury, in an informed manner, exercised its responsibility to weigh the credibility
of testimony that a defendant later claims was perjured. See id. at 475-76.
***

13

$ >• if'

»

Case 19-3407, Document 104, 05/27/2021, 3109267, Page14 of 14
4

We have reviewed the remaining arguments raised by Alfaro and Aguirre
on appeal, which we conclude are also without merit. For the foregoing reasons,
we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

i

\

ATrue Copy
CatherineO’Hagan Wj
United States C

iyuMBi
J SECOND

>rk
.. ^

,\Second Circuit

14

*
XJ,

I

